HHS/OIG, Audit - "Review of New Jersey Medicaid Contingency Fee Contract
Payments for the Period April 1, 1996, Through June 30, 2001," (A-02-06-01006)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Jersey Medicaid Contingency Fee Contract
Payments for the Period April 1, 1996, Through June 30, 2001," (A-02-06-01006)
January 15, 2008
Complete
Text of Report is available in PDF format (448 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New Jersey
awarded contingency fee contracts to Deloitte
Consulting LLP (Deloitte) and Health Care Resources, Inc. (HCR), to generate
increased Federal reimbursement by identifying and submitting to the Federal
Government unclaimed State expenses.  According to the terms of the contracts,
Deloitte and HCR were paid fees contingent on additional Federal funds
recovered.  As a result of work performed, the State paid $21,017,894 of
contingency fees to Deloitte ($19,681,538) and HCR ($1,336,356).
The State improperly claimed $15,956,556 ($7,978,278 Federal share) in
contingency fees.  Pursuant to Office of Management and Budget Circular A-87,
States may charge contingency fees when reasonable in relation to the services
provided and when not contingent on recovery of the costs from the Federal
Government.  We recommended that the State refund $7,978,278 to the Federal
Government.  The State disagreed.